Department of Health and Human Servces

            OFFICE OF

       INSPECTOR GENERA





LOW- COST ULTRASOUND EQUIPMENT





          $9vr
                  Richard P. Kusserow
             rr
                  INSPECfOR GENERA

                      OEI-03   1401
              EXECUTIVE SUMMAR 

PUROSE
This report reviews the appropriateness of Medicare reimbursements for tests
conducted with low-cost ultrasound equipment.

BACKGROUN
Diagnostic ultrasound tests are covered servces under Part B of the Medicare
program. Medicare law prescribes certain coverage criteria for ultrasound tests.
Primarily, a test must be " reasonable and necessary " for the diagnosis or treatment of
a beneficiary s ilness or injury. In addition   , the test must be conducted or ordered
by a physician or performed under the physician s general supervsion.

Used chiefly as a diagnostic technique , ultrasound is used in lieu of high- risk   invasive
procedures to detect internal diseases and abnormalities. A wide range of
specialties , such as cardiology, gyecology, and vascular surgery, use ultrasound as a
diagnostic tool. Ultrasound devices send soundwaves into the body producing echoes
as they encounter differences in tissue structures. The data produced by the echoes
can be transmitted into an image which can be recorded in color as       well as black
and white.

Low-cost ultrasound equipment has gained more prominence in the medical
marketplace in the past 20 years. Our recent report on noninvasive , diagnostic
testing (Quality Assurance in Independent Physiological Laboratories , OAI- 03-88-
01400), identified a number of concerns regarding this equipment. Primariy, these
concerns center on the lack of regulation and oversight of these kinds of medical
equipment devices.

MEODOLOY
We obtained information about the capabilties of ultrasound equipment from a
variety of sources including medical diagnosticians , manufacturers , and technical
publications. We reviewed data concerning specific ultrasound servces and
corresponding procedure codes from Medicare Part B payment records.
MAOR FIINGS

A Varity of Ulasoun Eqpment Exts

An extensive array of ultrasound equipment, exists in the medical marketplace.
Equipment ranges from small , hand- held devices , popularly known as " Pocket
Dopplers " to complex equipment which can perform a variety of tests. Costs range
from $200 for a Pocket Doppler to more than $300 000 for state-of- the-art
equipment.

Medicare Cod Fail to Ditiguh Between Test Type or        Res
Medicare procedure codes do not differentiate between the extent of a test or the
nature of test results.

Thre are Strng Incenties for Exese Use of Pocket Dopple

A 5- minute scan by a $300 Pocket Doppler can yield a payment of over $100. Thus
excessive payments can be claimed for a relatively simple screening test based on a
comparatively modest investment.

Th   HCF A   is Vulble to Inapproprite Bilgs
Medicare carrers lack sufficient safeguards to detect ultrasound bilings based on
inferior test results.



A Precednt Exts to Deny        Payt for Pocket Doppler Tests
In a previous decision regarding small diagnostic equipment , HCF A ruled that a
portable hand- held x-ray instruent - a device comparable to the Pocket Doppler ­
 should be reimbursed as part of the physician s professional servce , and no
additional charge should be allowed.

RECOMMATIONS
The HCFA should (1) prohibit payment for tests conducted with Pocket Dopplers
and (2) advocate revisions in procedure codes and reimbursement rates to reflect the
different levels of sophistication and quality of diagnostic information provided in
ultrasonic vascular testing.
COMM           and   OIG REPONSE

The RCF A concurred with our recommendation to prohibit payment for tests
conducted with Pocket Dopplers. In the future , such tests will be paid as part of the
physician s professional servce , and no additional charge   will be allowed.


The RCF A disagreed with our recommendation to revise procedure codes and
reimbursement rates to reflect the different levels of sophistication and qualty
provided in ultrasound tests. They indicated they may base payments on li the level
of treatment delivery, " rather than acquisition costs.

Our report recommends that payment be based on different levels        of sophistication
and diagnostic quality, not equipment acquisition costs. If we interpret HCF A'
response correctly to mean that the codes should encompass the nature and the
quality of diagnostic testing, we believe our recommendation mirrors HCF A'
intentions to base payments on " the level of treatment delivery.

We contiue to believe that RCFA should advocate revisions in procedure codes
reflecting the various levels of sophistication and quality of diagnostic information
provided in ultrasound tests. This effort , combined with adjusted reimbursement
rates , should result in more equitable reimbursement for these tests. We have
modified our recommendation to give RCF A greater flexibility in achieving this
result.

We understand RCF A has encouraged procedure code revisions in vascular tests
during recent contacts with the American Medical Association s editorial board.
We support such efforts and encourage continued attempts until appropriate changes
have been implemented.


We recently issued a Management Advisory Report quantifyg Medicare
reimbursements and potential savings on Pocket Dopplers. We also plan to issue a
related second report providing RCF A with information on " Zero- Crossing " devices ­
ultrasound equipment similar to Pocket Dopplers.
           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .. .. . . .. .. .. . . . . . . . . .. .




                  TABLE OF CONTENTS

EXECUTIV SUMMAY

INODUCfrON                                                                                     . . . . . . . . . . . 1





FINDINGS                                                                             . . . . . . . . . . . . . . . . 3





RECOMMENDATIONS


APPENDIX A: CPT Definitions of Procedure Codes                              . . . . . . . . . . . . . . . .. . A­

APPENDIX B: Comments ..................................... B­

                         INTRODUCTION

PUROSE
This report reviews the appropriateness of Medicare reimbursements for tests
conducted with low-cost ultrasound equipment.

BACKGROUN
Diagnostic ultrasound tests are covered servces under Part B of the Medicare
program. The Health Care Financing Administration (RCFA) has issued gudelines
in Medicare Carrers Manual Section 50- 7 which states: " The use of the ultrasound
technique is sufficiently developed that it can be considered essential to good patient
care in diagnosing a wide variety of conditions.

Under Medicare law, diagnostic tests , such as ultrasound , must meet certain coverage
criteria. Priariy, a test must be " reasonable and necessary" for the diagnosis or
treatment of a beneficiary s ilness or injury. Further , the test must be conducted or
ordered by a physician or performed under the physician s personal supervsion.
Typically, ultrasound tests are conducted in a physician s office , independent
laboratory, or outpatient hospital facilty.

The RCF A requires Medicare carriers to apply safeguards against unnecessary
utilization of servces furnished by physicians and other providers of servces.
Carriers conduct prepayment and postpayment reviews designed to detect
inappropriate , noncovered ,   or excessive servces. Measures used   to correct abuses
include overpayment recoveries and remedial counseling.

Ultrasound is one of the most important developments in medical science in the last
40 years. Primarily used as a diagnostic technique , ultrasound is used in lieu of high-
risk invasive procedures to detect internal diseases and abnormalities.

A wide range of specialties , such as cardiology, gyecology, and vascular surgery, use
ultrasound as a diagnostic tool. Ultrasound devices send high- frequency soundwaves
into the body producing echoes as they encounter differences in tissue structures.
The data produced by the echoes can be transmitted into an image which can be
recorded in color as well as black and white. Typically, the tests are conducted by
specially trained individuals known as ultrasonographers or, more commonly,
sonographers.

Ultrasound equipment has evolved into different levels of technological sophistication
with corresponding price ranges. In particular , low-cost ultrasound equipment has
gained more prominence in the medical marketplace in the past 20 years. Our
recent report on noninvasive ,   diagnostic testing (Quality Assurance in Independent
Physiological Laboratories , OAI- 03- 88- 01400), identified a number of concerns
regarding this equipment. Primarily, these concerns center on the lack of regulation
and oversight of these kinds of medical equipment devices.

The Food and Drug Administration (FDA) has never established performance
standards for any medical devices ,including low-cost ultrasound equipment.
accordance with the 1976 amendments to the Federal Food , Drug, and Cosmetics
Act , FDA clears a new device for marketing if it has the same intended use or is
substantially equivalent to a preenactment device. Low-cost ultrasound equipment
met this requirement. However , even though performance standards have not been
developed , FDA uses its own draft guidance instructions to manufacturers and
voluntary standards to evaluate the performance of ultrasound devices.

A comparison of 1987 and 1988 Medicare payment records reveals a marked
increase in diagnostic ultrasound tests. Allowed charges for abdominal ultrasound
tests reflect a 14 percent increase from 1987 to 1988. Five commonly performed
ultrasound tests related to vascular diseases increased by approxiately 25 percent
from 1987 to 1988. Allowed amounts for the 5 tests exceeded $97 millon, an
increase of more than 34 percent.

METIODOLOGY

We obtained information about the capabilties of ultrasound equipment from a
variety of sources. These sources included medical diagnosticians , equipment
manufacturers , equipment evaluation organizations , and physiological laboratories.
We selected respondents based on recommendations provided by experts in
                    Our analysis focused on information presented in technical
physiological testing.
journals and periodicals on the performance characteristics of different levels of
ultrasound devices. We studied materials obtained from equipment manufacturers
which detailed technical specifications and principles of operation for their
equipment. We contacted 15 Medicare carrers to determine if they had any special
policies regarding tests conducted with Pocket Dopplers. In    addition , independent
diagnostic centers and hospital physiological laboratories sent us internal manuals
describing step- by-step applications of ultrasound instrumentation in various tests.
We also solicited and reviewed publications and materials submitted by industry
associations.

We obtained pertinent statistical information concerning ultrasound servces and
corresponding procedure codes from HCF A' s Part B payment data system.
               FINDINGS

  VAR OF ULTROUN EQUIME EXI
An extensive array of ultrasound equipment : exists in the medical marketplace. The
gamut of equipment extends from small , hand- held devices , popularly know as
 Pocket Dopplers " to complex, state-of- the-art equipment which can perform a
variety of intricate tests. Equipment costs range from $200 for a Pocket Doppler to
more than $300 000 for state-of- the-art equipment.

The Pocket Doppler is a relatively unsophisticated and inexpensive instrument to
operate. A hand- held device , often shaped like a ballpoint pen , the tyical Pocket
Doppler works on a rechargeable 9-volt battery. It transmits a high frequency
soundwave into the tissues. Soundwaves reflected from internal organs or the flow
of blood shift in frequency by an amount proportional to blood flow velocity. The
reflected sound is received and processed as an audible signal or recordable
waveform. Typically, the Pocket Doppler is nondirectional (Le. , it is incapable of
determining the direction of blood flow), and produces audio signals only. These
devices are marketed as ultrasound equipment and generally cost between $200 -
$600.

The two principal methods of documenting test results are analog waveform analysis
and spectral waveform analysis. Analog waveform ana1ysis provides a single
frequency display of the soundwave whereas spectral analysis records multiple
quantitative frequencies. The less costly analog system has been likened to recording
the average speed of all the cars on a highway while the spectral device records the
individual speed of each car.

Manufacturers market Pocket Dopplers to many specialties      for a variety of uses.
Since it is designed primarily to detect a pulse or the flow of blood , its pricipal uses
are in obstetrics and vascular diseases. Obstetricians use Pocket Dopplers to detect
and monitor fetal heartbeats. Vascular surgeons and other practitioners , who treat
diseases of the veins and arteries , employ these instruments to determine
abnormalities in blood flow. Other specialties who frequently use Pocket Dopplers
include internists, anesthesiologists , and podiatrists. They are also used in special
situations , such as at the scene of an accident , in an emergency room , and as an
adjunct to more complex ultrasound equipment.
Oinicians who want to use a device more sophisticated than the Pocket Doppler, but
stil relatively inexpensive , have a variety of equipment to consider. Typically, these
devices are bidirectional (capable of determining the direction of blood flow), and
produce objective evidence such as a strip-chart record or graph.     Some tyes come

with interchangeable probes and optional accessories depending on the depth and
sensitivity of the tissues examined. Generally, devices in this category cost between
$600 - $5 000.

Diagnostic ultrasound tests are usually conducted using " mid- level" equipment. This
equipment costs from $15 000 to $60 000 and offers a wide range of sophisticated
options , such as remote control , selectable frequency ranges , and video spectru
analysis of blood flow measurements. More expensive equipment offers two-
dimensional displays , computerized analysis , and color- flow imaging. Devices
equipped with color- flow imaging produce video pictures of blood flow velocities in
combinations of red , blue , and green. Changes in the intensity of color and blood
flow velocity can indicate an irregularity, such as a blockage.

State-of- the-art equipment may exceed   $300 000 depending on the manufacturer,      the
technological sophistication of the device   , and the number of options available.
Although stil in the experimental stage , some devices are capable of producing
three- dimensional pictures of clogged arteries and cross-section images of damaged
blood vessels.

MEDICAR CODES FAl TO DISTIGUISH BETWEN
REULTS
                                                                  TE     TYES




Medicare reimbursements for diagnostic ultrasound tests are linked to a procedure
code system known as the Health Care Financing Administration Common Procedure
Coding System (HCPCS). Under HCPCS , physician servces are reported as five-
digit codes defied in the American Medical Association Cu"ent Procedural
Terminology  (CPT). The physician or diagnostic laboratory conducting a test requests
payment by submitting a claim form to the servcing Medicare carrier        indicating the
appropriate HCPCS code.

Under the HCPCS system , however , there is no differentiation between the extent of
the test or the nature of test results. Thus , reimbursement for any particular
ultrasound test is paid at the same rate without regard to the extensiveness of the
test or the quality of the data produced. For example , procedure code 93910
(noninvasive studies of the lower limbs), cites five possible elements of this test.
(See Appendix A for CPT definitions of procedure codes used in ultrasound tests.
If a practitioner perfonns anyone of the elements , he is legitimately entitled to claim
the same reimbursement level as someone who conducts an exhaustive test producing
more sophisticated results. " The codes do not distinguish the differences in testing,
one expert said.
The chart below compares the claims processing results of the same test conducted
with different levels of equipment and yielding, as a result, dissimilar levels of
diagnostic evidence.





                        VASCULR TEST OF LOWER LIMBS

      Type of                  Pocket Doppler           Automated imaging
      Equipment                                          system with 2­
                                                         dimensional and
                                                         color doppler

                                                         capabilty
      Price of                  $200- $600              $60 000 - $100 000
      Equipment

      Data Analysis          Audio Signals Only         Computer- enhanced
                                                        high - res01 u tion
                                                         color image of
                                                         blood flow
                                                         anatomical parts
                                                         and pathology

      Exten t of                  1 Artery              Multiple Arteries
      Test

      Length of                5 - 10 minutes           45 - 60 minutes
      Test
      HCPCS Code                    93910                93910

      Average                        $135                $135
      Charge

      Average                         $97                $97
      Allowance
                                       , "




There are Strong Incenties for Excessive      Use of Pocket   Dopplers

As the chart above indicates , a 5-minute scan by a Pocket Doppler results in the
same reimbursement as a I- hour scrutiny of multiple arteries using sophisticated
state-of- the-art equipment costing $100 000. As a result , excessive payments can be
claimed for a relatively simple screening test based on   a comparatively   modest
investment.

One intervewee who had attended a demonstration of Pocket Dopplers given by a
manufacturer described the event as reimbursement sellng. " The manufacturer, he
noted , continually stressed the financial benefits the device would bring in relation to
the time and expertise required to operate it. Another manufacturer routinely
included procedure code descriptions and corresponding payment ranges in its sales
brochures.

The RCF A is Vulerable to Inappropriate Bilgs

Medicare carrers do not have suffcient systemic and utilzation safeguards to detect
ultrasound billngs based on unsophisticated or inferior test results. However
although RCF A does not require carriers to determine the tye of equipment used
to perform vascular tests , some carrers have initiated efforts to ascertain this
information. Most carrers do not have the means or the resources to capture this
information or to   investigate each claim.

In an attempt to quantify the extent of Medicare billngs involving low-cost
equipment , we obtained sales figures from equipment manufacturers. According to
these sources , at least 100 000 Pocket Doppler units are in active use in the medical
community. Approximately 20 000 new units were sold in 1990. The most frequent
purchasers include hospitals , obstetricians , vascular specialists , and podiatrists. We
have released a Management Advisory Report quantifyng the monetary effects of
prohibiting distinct coverage for Pocket Dopplers.

A Precedent Exts     to Deny   Payment for Pocket Doppler Tests

The HCF A previously established a precedent regarding the coverage of small
diagnostic instruments. Medicare Carriers Manual section 50- 48 (Coverage Issues ­
Diagnostic Servces) details the usage of a portable hand- held x-ray instrument , a
device we consider comparable to the Pocket Doppler. This section states: " The
use of the portable hand- held x-ray instrument as an imaging device is covered under
Medicare. It should be reimbursed as part of the physician s professional servce
and no additional charge should be allowed.
Some carrers have taken action to prevent inappropriate payments. Eight of the
carriers we contacted deny payment for ultra50und tests if they know Pocket
Dopplers were used to conduct the tests. Some carriers , through prior utilization
contacts , have compiled lists of the kinds of equipment providers use in their servce
areas. One carrier utilization review representative contacts providers during claims
processing if there is any question concerning   the   tye of equipment used:
Several carrers have instituted wrtten policy changes designed to curb unwarranted
reimbursements. A written policy implemented by Blue Shield of Alabama was
tyical of carrers which decided to deny payment for Pocket Doppler usage.        The
policy states: " No reimbursement is allowed for a simple hand- held doppler device
as this is considered to be a part of the physical examination of the vascular system.

Pennsylvania Blue Shield implemented a policy change effective March 1 ,        1990
preventing payment for Pocket Dopplers.    For vascular tests to be reimbursable , the
policy requires that equipment: (1) must produce a hard-copy report for objective
review, and (2) must be bidirectional or capable of determg blood flow diecton.
The carrer plans to conduct postpayment reviews to monitor adherence to its policy.

Four carrier representatives stated that Pocket Doppler examinations should be
considered part of the office visit. " s just an extension of the doctor s servce " one
medical director said. Another representative compared the Pocket Doppler to a
mechanical device used by a chiropractor. " Medicare only pays a chiropractor if he
uses his hands to do a manual manipulation. There is no extra payment if he uses
a mechanical device.
                     RECOMMENDA TIONS

The HCFA should

             prohibit payment for tests conducted with Pocket Dopplers , and

             advocate revisions in procedure codes and reimbursement rates to     reflect
             the different levels of sophistication and quality of diagnostic information
             provided in ultrasonic vascular testing.

SUMY OF RECOMMATIONS AN AGENCY COMM
The HCFA concurred with our recommendation to prohibit coverage for tests
conducted with Pocket Dopplers. They plan to issue a claims manual instruction
treating Pocket Doppler tests in a manner similar to portable hand- held x-ray
instruments (Medicare Claims Manual section 50-        , Coverage Issues - Diagnostic
Servces ).

The HCFA disagreed with our recommendation to revise procedure codes and
payment rates to reflect different levels of sophistication and diagnostic quality
provided in ultrasound tests. According to HCF A, it is not a good idea to base
payments totally on equipment acquisition costs. Instead , HCF A, which compared
vascular testing to radiation therapy servces , intends to base payments on " the level
of treatment delivery.

Our report recommends that payment be based on different levels of sophistication
and diagnostic quality, not equipment acquisition costs. We believe our
recommendation-- if we interpret HCF A' s response correctly to mean that the codes
should encompass the nature and the quality of diagnostic testing--mirrors HCFA'
intentions to base payments on " the level of treatment delivery.

We continue to believe that HCFA should advocate revisions in procedure codes
reflecting the various levels of sophistication and quality of diagnostic information
provided in ultrasound tests. This effort , combined with adjusted reimbursement
rates , would result in a more equitable reimbursement system for these tests.
have modified our recommendation to give HCF A greater flexibility in achieving this
result.

We understand HCFA has encouraged procedure code revisions in vascular tests
during recent contacts with the American Medical Association s editorial board.
We support such efforts and encourage continued attempts until appropriate changes
have been implemented.

The Assistant Secretary for Management and Budget provided comments supporting
our findings and recommendations. The full: text of these comments , as well as
HCF A' s comments, are contained in Appendix B.

In addition to the  Management Advisory Report on Pocket Dopplers , we wi soon
issue a related second report providing HCF A with information regarding " zero­
crossing " devices--ultrasound equipment similar to Pocket Dopplers.
                                 APPENDIX

CP DEFIONS OF PROCEUR CODES USED IN ULTROUN TETS
(Note: Pocket      Dopplers. are capable of performing only those elements shown in
boldface. )

                                 Cerebrovascu Arer            Stu
93850         Non- invasive  studies of cerebral arteries other than carotid (e.
              periorbital flow direction with arterial compression , periorbital
              photoplethysmography with arterial compression , ocular plethysmography
              with brachial blood pressure , ocular and ear pulse wave timing, vertebral
              arteries flow direction measurement)

93860         Non- invasive                         non-imaging (e.
                              studies of carotid arteries ,
              phonoangiography with or without spectrum analysis , flow velocty
              evuation, analog velocty wave form analyis diastolic flow evuation)
                                                                                   patt
93870         Non- invasive   studies of carotid arteries ,
                                                       imaging (e. , flow imaging by
              ultrasonic arteriography, high resolution B-scan with or without pulsed
              Doppler flow evaluation , Doppler flow or duplex scan with spectrum
              analysis)

                                       Lim Areril     Stu
93890         Non- invasive studies of upper extremity arteries (e. , segmental blood
              pressure measurements , contiuous wave Doppler analog wave form
              analis evocative pressure response to exercise or reactive hyperemia,
              photoplethysmographic or pulse volume digit wave form analysis, flow
              velocty signal)

93910         Non- invasive studies of lower extremity arteries (e.g. , segmental blood
              pressure measurements , contiuous wave Doppler analog wave form
              analis evocative pressure response to exercise or reactive hyperemia
              photoplethysmography or pulse volume digit wave form analysis , flow
              velocity signal)

                                          Venous   Stu
93950         Non-invaive studies of extemity vein (e. , Doppler studies with
              evuation of venous flow patterns and responses to compression and
              other maneuvers , phleborheogrphy, impedace plethysmography)
93960    Quantitative venous flow studies (e. , capacitance and outflow
         measurement of calf, measurement of calf venous reflux, quantitative
         photoplethysmography)

             Othe Dign        Uloun Tes Commnl Perorm
76805
   Echography, pregnant uterus , B-scan and/or real time with image
         documentation; complete (complete fetal and maternal evaluation)

76815
   Limited (gestational age , hear beat,   placental location ,   fetal position , or
         emergency in delivery room)

76816
   Follow-up or repeat (see 76815)



76830
   Echography, transvaginal

76855
   Echogrphy, pelvc area (Doppler)

76870
   Echography, scrotum and contents

76925
   Echography, periphera vascular sytem (e.g. ,     B-sca Doppler or real-
         tie sca)


76926
   Echography, head and trunk , vascular system (e. , duplex Doppler)




                                       A­
APPENDIX 

   COMMNT
.? ....


                                                   r.u

                                                   DmAS
                                                              ,.
                          , -




               DEPARTMENTOFHEALTH&.HUMANSERV JI                              Adm
                                                                        Health Car. 




                                                          aBE=k
                                              't




                                                                               ;8ndurr
     Date Administrator           C1(L         DATE          '-                     c :





    ;:rom
                Heal th   Care Financing Administration

                OIG Draft Report:   LoW-Cost Ultrasound Equipment,                          -;1
                OEI-03-88-01401
     Subject
                                                                                            ""1
                The Inspector General
                Office of the Secretary


                Thank you for the opportunity to comment on the above

                referenced draft report discussing the appropriateness         of
                Medicare payment for certain types of ultrasound
                equipment.
                We concur with the recommendation that HCFA should

                prohibit payment for tests conducted with Pocket Dopplers
                under the Medicare program. We recently presented this
                issue to our Coverage/Payment Technical Advisory Group

                and the members advised us that Pocket Dopplers are part
                of the physician I s armamentarium and, like ordinary
                stethoscopes, should not qualify for separate payment

                under the program. Accordingly, we are preparing a
                manual instruction that will limit Medicare payment for
                tests conducted with the Pocket Doppler in a manner

                similar to the way in which we limi tea payment for

                portable hand-held x- ray units in section 50-48 of the

                Coverage Issues Manual: They will be paid for as part of

                the physician s professional service with no additional

                charge allowed.
                We disagree with the recommendation that HCFA revise

                procedure codes and payment rates to reflect the

                different levels of sophistication and quality of
                diagnostic information provided in ultrasound tests.
                far as the hand-held devices are concerned, we do not
                believe that revised procedure codes or payment levels
                are needed, since such procedures should be payable
                through visit or other physicians I service codes, and

                ul trasound codes should never be billed.    However,
                should make clear that the codes for ultrasound
                procedures do not apply to the hand-held device.

                it is not clear that any action isupper-level equipment,
                wi th respect to the mid-level and
                                                   needed. Further,  we
                do not believe it is a good idea to base payments totally

                on the acquisition costs of the equipment used in
                providing the service. We are facing a similar problem

                with regard to radiation therapy services furnished in
                ambulatory settings. In such situations, the state-of-

Page 2 - The Inspector General


the-art equipment can deliver treatments at all levels,
and we intend to base payments at the level of treatment

    ver
deli ! ra             he acquisition cos s of the
               her than

equipment.
Since your office is completing a follow-up study to

determine the extent to which carriers are paying doctors

for ultrasound tests conducted with Pocket Dopplers, we

request that you defer a determination of potential

savings until that study is completed.
Attached are additional comments on technical aspects of

this report.  Please advise us whether you . agree with our
position on the report' s recommendations at your earliest
convenience.



                          Gail R   ::nsky, Ph. D.
Attachment
            Heal th   Care Financina Administrion
          Comments on Office of the Ins     or General

              Draft Re ort - "Lo , Cos Ultrasound
                   EauiDment" (OEI-03-88-01401)

Procedure Codes

In specifying which Common Procedural Terminology (CPT

codes met the definition of " radiology services" for purposes

of payment under the fee schedules for radiologist services,
42 CFR 40S. 530(c) (1) included those ultrasound services in the

CPT-4 70000 series and excluded those in th 90000 series.

The American College of Radiology has indicated that, for the

subgroup of procedures classified as ultrasound procedures,

the relative value scale it developed for pUrposes of payment

under the fee schedules for radiologist services reduced the

values assigned to ultrasound procedures by 2 percent. This
reduction affected procedures furnished by fee schedule

physicians on or after April 1, 1989.

Effective for services furnished on or after April 1, 1990,

the prevailing charges for CPT-4 codes 76925 and 76426 were

limi ted by the radiologist fee schedule amounts in those
localities in which carriers recognized specialty

differentials. Furter,     section 4102 (c) of the Omnibus Budget
Reconciliation Act (OBRA) of 1990 establishes the radiologist
fee schedule amounts in individual localities as limits
, on
prevailing charges for all 70000 series procedures, including

ul trasound procedures , effective for services furnished on or
after January 1, 1991.

As is the case with nearly all diagnostic procedures,

'11 trasound procedures have both a professional and a technical
component. If the second recommendation relates only to the

equipment costs of mid-level and upper-level equipment, we

believe that the recommendation should specify that it applies

only to the technical component of ultrasound procedures.
this regard, we would point out that section 4108 of OBRA 1990
provides that the reasonable charge for the technical

component of certain high-volume diagnostic tests (including
the applicable portion of the global service) may not exceed

the national median of such charges for all localities.

Reasonable charge allowances below the national median are not

raised to the national median level. CPT-4 procedure codes

93850, 93860, 93870 , 93910, and 93950 are subject to this

limitation effective for services furnished on or after

January 1, 1991.
Page 2



As far as radiologist fee schedule payments are concerned, we

have seen no evidence to indicate that technical component
paymant levels for ultrasound procedures are out of line. For
example, code 76855 has a technical component relative value

of 4. O.   Using the 1990 weighted average conversion factor of
$13. 20, the fee schedule amount for the technical component
the procedure is $54.12.   This amount would be payable
regardless of the type of ultrasound equipment used to furnish
the service and would seem to pale in compari on with
technical component payments of $200 for computerized Axial

Tomography (CT) procedures and over $400 for Magnetic
Resonance Imaging (MRI) procedures.
Billinas for Pocket DooDlers

It is not possible to determine the extent of billings for the

use of Pocket Dopplers from existing Medicare Part B Service
Data System (BMD) data. Billings can be determined by place

of service, but canot   be used to determine what device was
used to perform the diagnostic test. The information
presented in the report that the largest provider of
ambulatory ultrasound services in the country estimated that
10-20 percent of in- office ultrasound tests were conducted

with Pocket Dopplers is also not very helpful. OIG' s estimate
of $18 million in Medicare expenditures for the use of Pocket

Dopplers needs furter   study and refinement.
/ ........'         "- :_ ...
                       ,,-,           =-:          / .-
                                                   ' -=                                      -(­
                      =-




              DEPARTMENT OF HEALTH &. HUMAN SERVICES
                                                                       SRd
                                                                          n. 3
                                                                        (!Lr"..tA..
                                                                                              Offce of   the Secetay


                                                                                              Washington . D. C.   20201

                                                          JAN 2 8 1991



                                                                                                                            C' ::

                                                                                                                       G) il'
                                                                                                                       ;T 0 CJ

              MEMORADUM TO:                 Richa              usserow
                                                               neral                                                   r-;gm
                                                                                                                          VI c:
                                            Insp
                                                                                                                            (" C7


               FROM                         K V n E.

                                            Assistant ecretary                   for Management of Bud
                                                                            II   Low-Cost Ultrasound
               SUBJECT                      OIG Draft Report:
                                            Equipment     II
                                                               03-   i7 -         OIL/o/


               IILow-cost Ultrasound Equipmentll     enthusiastically
               I have reviewed the OIG draft inspection report entitled

                                                                     and I
               support the report findings and recommendations.

               I would hope that HCFA would take action as soon as feasible

               to implement the report recommendations andAddi
                                                           prohibit  payment

                                                               tionally, HCFA
               for tests conducted with pocket Dopplers. 

               should begin to revise current procedure codes and

               reimbursement rates to reflect the varying levels of the

               ultrasound devices being used.
                                        

                I commend the Office of the Inspector General on their

                excellent work in this area.




                   18-
                   :2:JIG
                   IJ:      1-;.




                    C:'         /IG
                        OFFCE OF INSPECTOR GENRA

The mission of the Offce    of Inspector General (OIG), as mandated by Public Law 95-452
as amended , is to protect the integrity of the Department of Health and Human Servce
(HHS) programs as well as the health and welfare of beneficiaries served by those programs.
This statutory mission is carried out through a nationwide network of audits , investigations
and inspections conducted by three OIG operating components: the Offce of Audit
Servces , the Offce of Investigations , and the Offce of Evaluation and Inpections. The
OIG also informs the Secretary of HHS of program and management problems and
recommends courses to correct them.

                           OFFICE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civi , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

                 OFFICE OF EVALUATION AN INSPECTONS
The OIG's Offce of Evaluation and Inspections      (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,   and the public. The findings and recommendations contained in these
inspection reports generate rapid , accurate , and up- to- date information on the effciency,
vulnerability, and effectiveness of departmental programs.

The report was prepared by the Philadelphia Regional offce under the direction of
Joy Quil , Regional Inspector General and Robert Vito , Deputy Regional Inspector General.
Project Staff:

Robert A Katz Project Leader
Linda M. Ragone
Cynthia R. Hansford
W. Mark Krushat (Headquarters)
Wayne Powell (Headquarters)
